Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




IDAHO STATE MEDICAID FRAUD
       CONTROL UNIT:
    2012 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                         April 2013
                       OEI-09-12-00220
IDAHO STATE MEDICAID FRAUD CONTROL UNIT:
2012 ONSITE REVIEW
OEI-09-12-00220

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees all State Medicaid Fraud Control Units
(MFCU or Unit) with respect to Federal grant compliance. As part of this oversight,
OIG annually reviews and certifies all Units. In addition, OIG conducts onsite reviews of
selected States. These reviews assess Unit performance in accordance with the 12 MFCU
performance standards and monitor Unit compliance with Federal grant requirements,
laws, and regulations.

HOW WE DID THIS STUDY
We analyzed data from seven sources: (1) a review of documentation, policies, and
procedures related to the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of
Unit staff; (5) structured interviews with the Unit’s management and selected staff; (6) an
onsite review of case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND
Our analysis of collected data from fiscal years (FY) 2009 through 2011 shows that the
Unit reported recoveries of $5 million, Unit convictions and civil judgments and
settlements increased, and the Unit opened 326 cases. Unit case files consistently
contained documentation of supervisory approval to open and close cases, documentation
of at least one supervisory review, and documentation of additional, periodic supervisory
reviews. The Unit lacked adequate safeguards to secure case files, however. In addition,
the Unit had not fully updated its policies and procedures manual to reflect its current
operations and had not updated its memorandum of understanding (MOU) with Idaho’s
State Medicaid agency—the Department of Health and Welfare (DHW)—to reflect
current law and practice. Except for case file security and an MOU stipulation that the
Unit may be charged for data requests, we found no evidence of noncompliance with
applicable laws, regulations, and policy transmittals.

WHAT WE RECOMMEND
We recommend that the Idaho Unit: (1) ensure that case files are secured against
unauthorized access and/or removal and create adequate policies or procedures for
securing case files and other documentation containing personally identifiable
information, (2) revise its policies and procedures manual to reflect current Unit
operations, and (3) revise its MOU with DHW to reflect current law and practice. The
Unit concurred with all three of our recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................7
       From FY 2009 through FY 2011, the Unit reported recoveries
       of $5 million, Unit convictions and civil judgments and
       settlements increased, and the Unit opened 326 cases .....................7
       Ninety-eight percent of case files contained documentation of
       supervisory approval to open and close cases..................................8
       Ninety-one percent of case files contained documentation of at
       least one supervisory review and 89 percent contained
       documentation of additional, periodic supervisory reviews ............9
       The Unit lacked adequate safeguards to secure case files ...............9
       The Unit’s policies, procedures, and MOU with DHW were
       outdated ............................................................................................9
       Other Observation: Investigative Checklist and Case Plan .......... 11
Conclusion and Recommendations ............................................................12
       Unit Comments and Office of Inspector General Response ..........13
Appendixes ................................................................................................14
       A: Performance Standards for Medicaid Fraud Control Units .....14
       B: Referrals of Provider Fraud and Patient Abuse and Neglect
       to the Idaho Medicaid Fraud Control Unit by Source, Fiscal
       Years 2009 Through 2011 ..............................................................18
       C: Investigations Opened and Closed by Provider Category
       and Case Type, Fiscal Years 2009 Through 2011 ..........................19
       D: Case File Review Population, Sample Size Counts, and
       Confidence Interval Estimates .......................................................21
       E: Unit Comments.........................................................................23
Acknowledgments......................................................................................25
                   OBJECTIVE
                   To conduct an onsite review of the Idaho State Medicaid Fraud Control
                   Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law. 1 Pursuant to Title XIX of the SSA, each State
                   must maintain a certified Unit unless the Secretary of Health and Human
                   Services (HHS) determines that operation of a Unit would not be
                   cost-effective because (1) minimal Medicaid fraud exists in that State; and
                   (2) the State has other, adequate safeguards to protect Medicaid
                   beneficiaries from abuse and neglect. 2 Currently, 49 States and the District
                   of Columbia (States) have created such Units. 3 In fiscal year
                   (FY) 2011, 4 combined Federal and State grant expenditures for the Units
                   totaled $208.6 million, of which Federal funds represented
                   $156.7 million.5 That year, the 50 Units employed 1,833 individuals. 6
                   Each Unit must employ an interdisciplinary staff that consists of at least an
                   investigator, an auditor, and an attorney to carry out its duties and
                   responsibilities in an effective and efficient manner. 7 The staff reviews
                   complaints provided by the State Medicaid agency and other sources and
                   determines their potential for criminal prosecution and/or civil action.
                   Collectively, in FY 2011, the 50 Units reported 1,230 convictions and
                   906 civil settlements or judgments. That year, the Units reported
                   recoveries of approximately $1.7 billion. 8

                   1
                     Social Security Act (SSA) § 1903(q).
                   2
                     SSA § 1902(a)(61). Regulations at 42 CFR 1007.11(b)(1) add that the Unit’s
                   responsibilities may include reviewing complaints of misappropriation of patients’
                   private funds in residential health care facilities.
                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana
                   Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units.
                   4
                     The Office of Inspector General (OIG) had not yet published final FY 2012 figures at
                   the time of this report.
                   5
                     All FY references in this report are based on the Federal FY (October 1 through
                   September 30).
                   6
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2011 Grant Expenditures and
                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on
                   April 16, 2012.
                   7
                     SSA § 1903(q)(6) and 42 CFR §1007.13.
                   8 OIG, State Medicaid Fraud Control Units Fiscal Year 2011 Grant Expenditures and

                   Statistics. Pursuant to 42 CFR § 1007.17, Units report the total amount of recovered
                   funds in their annual reports to OIG.


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                               1
                   Units are required to have either statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an office with
                   such authority. 9 In Idaho and 43 other States, the Units are located with
                   offices of State Attorneys General that have this authority. In the
                   remaining six States, the Units are located in other State agencies; 10
                   generally, such Units must refer cases to offices with prosecutorial
                   authority. Additionally, each Unit must be a single, identifiable entity of
                   State government, distinct from the State Medicaid agency, and each Unit
                   must develop a formal agreement—e.g., a memorandum of understanding
                   (MOU)—that describes the Unit’s relationship with that agency. 11
                   Oversight of the MFCU Program
                   The Secretary of HHS delegated to OIG the authority to both annually
                   certify the Units and administer grant awards to reimburse States for a
                   percentage of their costs of operating them. 12 All Units are currently funded
                   by the Federal Government on a 75-percent matching basis, with the States
                   contributing the remaining 25 percent. 13 To receive Federal reimbursement,
                   each Unit must submit an initial application to OIG. 14 OIG reviews the
                   application and notifies the Unit if it is approved and the Unit is certified.
                   Approval and certification are valid for a 1-year period; the Unit must be
                   recertified each year thereafter. 15
                   Pursuant to Title XIX of the SSA, States must operate Units that effectively
                   carry out their statutory functions and meet program requirements. 16
                   OIG developed and issued 12 performance standards to define the criteria
                   that OIG applies in assessing whether a Unit is effectively carrying out
                   statutory functions and meeting program requirements. 17 Examples include
                   maintaining an adequate caseload through referrals from several sources,


                   9
                     SSA § 1903(q)(1).
                   10
                      In States with a Unit, the Unit shares responsibility for protecting the integrity of the
                   Medicaid program with the section of the State Medicaid agency that functions as the
                   Program Integrity Unit. Some States also employ a Medicaid Inspector General who
                   conducts and coordinates fraud, waste, and abuse activities for the State agency.
                   11
                      SSA § 1903(q)(2) and 42 CFR § 1007.9(d).
                   12
                      The portion of funds reimbursed to States by the Federal Government for its share of
                   expenditures for the Federal Medicaid program, including the MFCUs, is referred to as
                   Federal Financial Participation.
                   13
                      SSA § 1903(a)(6)(B).
                   14
                      42 CFR § 1007.15(a).
                   15
                      42 CFR § 1007.15(b) and (c).
                   16
                      SSA § 1902(a)(61).
                   17
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on
                   November 22, 2011. Since the time of our onsite data collection (May 2012), OIG has
                   published a revision of the performance standards, 77 Fed. Reg. 32645 (June 1, 2012).
                   The performance standards referred to in this report are from 1994 and were in effect at
                   the time of our review.


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                                     2
                   maintaining an annual training plan for all three of the professional
                   disciplines (i.e., for auditors, investigators, and attorneys), and establishing
                   policy and procedures manuals to reflect the Unit’s operations. See
                   Appendix A for a complete list of the performance standards.
                   Idaho Unit
                   The Unit was founded in 2007; this is its first onsite review.
                   The Unit is an autonomous entity within the Criminal Law Division of the
                   Idaho Office of the Attorney General and has the authority to prosecute
                   Medicaid fraud and patient abuse and neglect cases. At the time of our
                   review, the Unit’s nine employees were located in the State capital of
                   Boise. The Unit Director directly supervises all Unit employees and acts
                   as the Chief Attorney.
                   The Unit receives provider fraud referrals from the State Medicaid
                   agency—the Idaho Department of Health and Welfare (DHW)—and from
                   Federal agencies, such as OIG. The Unit receives patient abuse and
                   neglect referrals from DHW’s Bureau of Facility Standards and Bureau of
                   Long-Term Care. Idaho State statute 18 requires the Unit to refer all patient
                   abuse and neglect allegations it receives to Adult Protective Services of
                   the Idaho Commission on Aging. 19 The Unit receives patient abuse and
                   neglect and provider fraud referrals from other State and local agencies
                   and through a Medicaid Fraud Report Form available on the Idaho
                   Attorney General Web site. 20 During the review period, the Unit
                   automatically opened all referrals as cases upon receipt. However,
                   beginning in September 2011, the Unit changed its policy to open cases
                   only after management accepts them for further investigation. For
                   additional information on Unit referrals, see Appendix B.
                   The Unit’s Chief Investigator screens all referrals the Unit receives, 21
                   researches the referred complaints, and provides recommendations to the
                   Unit Director on whether to pursue the cases further. The Unit Director
                   decides whether to proceed with the investigations or refer the cases to
                   another agency and notifies the Criminal Law Division Chief of his/her
                   decision. 22 For additional information on the Unit’s opened and closed


                   18
                      Idaho Statute Title 39, Chapter 53, “Adult Abuse, Neglect, and Exploitation Act.”
                   19
                       However, the Unit may still investigate these allegations on its own, without waiting
                   for action from Adult Protective Services or local law enforcement.
                   20
                      Complainants use this form to refer both provider fraud and patient abuse and neglect
                   cases to the Unit online. The Unit received 35 Medicaid Fraud Report Form referrals in
                   FYs 2009–2011.
                   21
                      The Unit occasionally will open cases that were not formally referred by an outside
                   source. For example, a case may be brought to the Unit’s attention by the media.
                   22
                      The Criminal Law Division Chief within the Idaho Office of the Attorney General
                   supervises the Unit Director.


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                                  3
                   investigations, including a breakdown by case type and provider category,
                   see Appendix C.
                   The Unit may open a case and pursue it through a variety of actions,
                   including criminal prosecution, civil action, or a combination of the two.
                   The Unit may close a case for a variety of reasons, including, but not
                   limited to, resolving it through criminal and/or civil action or referring it
                   to another agency.

                   METHODOLOGY
                   We analyzed data from seven sources: (1) a review of documentation,
                   policies, and procedures related to the Unit’s operations, staffing, and
                   caseload for FYs 2009 through 2011; (2) a review of financial
                   documentation for FYs 2009 through 2011; (3) structured interviews with
                   key stakeholders; (4) a survey of Unit staff; (5) structured interviews with
                   the Unit’s management and selected staff; (6) an onsite review of case
                   files that were open in FYs 2009 through 2011; and (7) an onsite review of
                   Unit operations.
                   We analyzed data from all seven sources to describe the caseload and
                   assess the performance of the Unit. We also analyzed the data to identify
                   any opportunities for improvement and any instances in which the Unit
                   did not meet the performance standards or was not operating in
                   accordance with laws, regulations, and policy transmittals.23 In addition,
                   we noted any practices that appeared to benefit the Unit. We based these
                   observations on statements from Unit staff, data analysis, and our own
                   judgment. We did not independently verify the effectiveness of these
                   practices, but included the information because it may be useful to other
                   Units in their operations.
                   We conducted the onsite review in May 2012.
                   Data Collection and Analysis
                   Review of Unit Documentation. We reviewed documentation, policies,
                   and procedures related to the Unit’s operations, staffing, and cases,
                   including its annual reports, quarterly statistical reports, and responses to
                   recertification questionnaires. We also reviewed the Unit’s data
                   describing how it investigates and prosecutes Medicaid cases. Data
                   collected included information such as the number of referrals received by
                   the Unit and the number of investigations opened and closed.
                   Review of Financial Documentation. We reviewed Unit financial
                   practices to determine compliance with applicable laws and regulations

                   23
                     All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                              4
                   and to determine the need for additional internal controls. Prior to the
                   onsite review, we reviewed the Unit’s financial policies and procedures,
                   its response to an internal control questionnaire, and MFCU grant-related
                   documents such as financial status reports. During the onsite review, we
                   examined a sample of the Unit’s purchase and travel transactions. In
                   addition, we examined a sample of time and effort records, vehicle
                   records, and the equipment inventory.
                   Interviews With Key Stakeholders. We conducted structured interviews
                   with six individual stakeholders among four agencies who were familiar
                   with Unit operations. Specifically, we interviewed DHW’s Medicaid
                   Program Integrity Supervisor; DHW’s Bureau of Facility Standards Chief;
                   an Assistant U.S. Attorney based in Boise; the Criminal Law Division
                   Chief; an OIG Special Agent based in Boise; and an Assistant Special
                   Agent in Charge for OIG’s Region IX, which includes the State of Idaho.
                   These interviews focused on the Unit’s interaction with external agencies,
                   Unit operations, opportunities for improvement, and any practices that
                   appeared to benefit the Unit and that may be useful to other Units in their
                   operations.
                   Survey of Unit Staff. We conducted an electronic survey of all applicable
                   Unit staff. 24 We requested and received responses from six nonmanagerial
                   staff members, for a 100-percent response rate. 25 Our questions focused
                   on operations of the Unit, opportunities for improvement, and practices
                   that appeared to benefit the Unit and that may be useful to other Units in
                   their operations. The survey also sought information about the Unit’s
                   compliance with applicable laws, regulations, and policy transmittals.
                   Interviews With Unit Management and Selected Staff. We conducted
                   structured interviews with the Unit’s Director (Chief Attorney), Chief
                   Investigator, and an auditor. We asked them to provide us with additional
                   information necessary to better understand the Unit’s operations, identify
                   opportunities for improvement, identify practices that appeared to benefit
                   the Unit and that may be useful to other Units in their operations, and
                   clarify information obtained from other data sources.
                   Onsite Review of Case Files. We selected a simple random sample of
                   100 case files from the 329 cases 26 that were open at any point from
                   FY 2009 through FY 2011. The design of this sample allowed us to

                   24
                      We did not survey one of the Unit’s nonmanagerial auditors because we interviewed
                   that auditor onsite.
                   25
                      This report uses the terms “management” and “supervisors” interchangeably.
                   “Nonmanagement” employees are Unit staff members who have no supervisory
                   authority.
                   26
                      This figure includes cases opened before FY 2009 that remained open at some point
                   during FYs 2009–2011.


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                             5
                   estimate the percentage of all 329 cases with various characteristics at the
                   95-percent confidence level. We reviewed these 100 sampled case files
                   and the Unit’s processes for monitoring the status and outcomes of cases.
                   From these 100 case files, we selected another simple random sample of
                   50 for a more in-depth review of potential issues. This second-phase
                   sample allowed us to conduct a more comprehensive review of case files
                   to identify other potential issues from a qualitative perspective. For
                   population and sample size counts, as well as confidence interval
                   estimates, see Appendix D.
                   Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                   operations. Specifically, we observed intake of referrals, data analysis
                   operations, security of data and case files, and the general functioning of
                   the Unit.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency. 27




                   27
                      Full text of these standards is available online at http://www.ignet.gov/pande/
                   standards/oeistds11.pdf.


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                           6
                   FINDINGS
                   From FY 2009 through FY 2011, the Unit reported
                   recoveries of $5 million, Unit convictions and civil
                   judgments and settlements increased, and the Unit
                   opened 326 cases
                   From FY 2009 through FY 2011, the Unit reported total criminal and civil
                   recoveries 28 of $5 million—an annual average of $1.7 million (see
                   Table 1). Of the $5 million in recoveries, the Unit attributed $4.8 million
                   to civil recoveries and $225,000 to criminal recoveries. The Unit’s annual
                   average expenditures for FYs 2009 through 2011 were $647,000. 29
                   Table 1: Idaho MFCU Reported Recovered Funds, FYs 2009 Through 2011
                                                                                                          3-Year      Annual
                                                 FY 2009           FY 2010           FY 2011
                                                                                                           Total     Average

                    Reported Criminal
                                                  $20,185          $28,764          $176,152            $225,101     $75,034
                    Recoveries

                    Reported Civil
                                                $985,219        $2,597,964        $1,190,879        $4,774,062     $1,591,354
                    Recoveries

                    Total Reported
                                              $1,005,404        $2,626,728        $1,367,031        $4,999,163     $1,666,388
                    Recoveries

                    Total
                                                $596,666          $646,119          $699,273        $1,942,058      $647,353
                    Expenditures

                   Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2009 through 2011.

                   From FY 2009 through FY 2011, Unit convictions and civil
                   judgments and settlements increased
                   From FY 2009 through FY 2011, the Unit obtained 15 convictions and
                   23 civil judgments and settlements—an annual average of 5 convictions
                   and 7.7 civil judgments and settlements (see Table 2).




                   28
                      Unit-reported recoveries include only the State share of funds recovered from
                   multi-State, or “global,” civil false claims cases, both those worked directly by the Unit
                   and those worked by staff from other Units. The Unit-reported civil recoveries do not
                   include the Federal share of recoveries allotted to the Idaho Unit from global cases
                   involving the U.S. Department of Justice and other State MFCUs.
                   29
                      The Unit provided data on reported expenditures in response to an OIG data request on
                   February 3, 2012. The figures presented in this paragraph are rounded.


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                                               7
                   Table 2: Unit Convictions and Civil Judgments and/or Settlements,
                   FYs 2009 Through 2011
                                                                                                             3-Year   Annual
                                                                 FY 2009       FY 2010        FY 2011
                                                                                                              Total   Average

                    Convictions                                           2             5               8        15         5


                    Civil Judgments and/or Settlements                    3             9               11       23       7.7


                   Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2009 through 2011.


                   The Unit’s convictions increased during the review period—from two in
                   FY 2009 to eight in FY 2011. The Unit’s civil judgments and settlements
                   also increased during the review period—from 3 in FY 2009 to 11 in
                   FY 2011.
                   From FY 2009 through FY 2011, the Unit opened 326 cases
                   From FYs 2009 through 2011, the Unit opened an average of 109 cases
                   annually—an average of 93 provider fraud and 16 patient abuse and
                   neglect cases. From FYs 2009 through 2011, the Unit closed an average
                   of 97 cases annually—an average of 82 provider fraud and 15 patient
                   abuse and neglect cases. 30 From FYs 2009 through 2011, the Unit
                   received an average of 106 referrals annually—an average of 95 provider
                   fraud and 11 patient abuse and neglect referrals.
                   Ninety-eight percent of case files contained
                   documentation of supervisory approval to open and
                   close cases
                   According to Performance Standard 6(b), Unit supervisors should approve
                   the opening and closing of cases to ensure a continuous case flow and the
                   timely completion of cases. Supervisory approval to open and close cases
                   demonstrates that Unit supervisors are monitoring the intake of cases and
                   the timeliness of case resolutions, thereby promoting the efficiency and
                   effectiveness of Unit staff. Based on our review of 100 case files, the Unit
                   documented supervisory approval to both open and close cases in
                   98 percent of the case files.




                   30
                        Closures include multiple cases opened before FY 2009.


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                                               8
                   Ninety-one percent of case files contained
                   documentation of at least one supervisory review and
                   89 percent contained documentation of additional,
                   periodic supervisory reviews
                   According to Performance Standard 6(c), supervisory reviews should be
                   “conducted periodically and noted in the case file” to ensure timely case
                   completion. 31 Based on our review of 100 case files, 91 percent of Unit
                   case files contained documentation indicating at least one supervisory
                   review and 89 percent contained documentation indicating additional,
                   periodic supervisory reviews.

                   The Unit lacked adequate safeguards to secure case
                   files
                   According to Performance Standard 1, a Unit will conform to “all
                   applicable statutes, regulations and policy transmittals.” Pursuant to
                   Federal regulations, a Unit must “prevent the misuse of information under
                   the Unit’s control” by safeguarding the privacy rights of witnesses,
                   victims, and informants. 32 A Unit must also safeguard the identities of
                   suspects when the allegations are unsubstantiated, unless such identities
                   are already in the public record or the individuals clearly consented to the
                   release of their private information. Unit case files containing personally
                   identifiable information were not secured from access by non-MFCU
                   personnel. Although individuals must use a coded access card to enter the
                   Unit’s general office space, several Attorney General Criminal Law
                   Division entities share this office space, and non-MFCU personnel can
                   gain access to areas where case files are stored on open, accessible
                   shelves. These vulnerabilities have created the possibility that personally
                   identifiable information could be removed from the premises undetected.
                   Since our onsite review, the Unit has provided documentation
                   demonstrating that the case files have been properly secured.
                   The Unit’s policies, procedures, and MOU with DHW
                   were outdated
                   Although the Unit updated its policies and procedures manual in
                   February 2012, the Unit Director stated that the investigative checklist had
                   not been incorporated into the written manual. In addition, the Unit did
                   not have adequate policies or procedures for securing case files and other

                   31
                      For the purposes of this report, supervisory approval to open and close a case does not
                   constitute a supervisory “review.” Periodic supervisory review indicates that a supervisor
                   reviewed a case more than once between the case’s opening and closing.
                   32
                      42 CFR § 1007.11(f); OIG State Fraud Policy Transmittal 99-02, Public Disclosure
                   Requests and Safeguarding of Privacy Rights (December 22, 1999).


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                              9
                   documentation containing personally identifiable information. Moreover,
                   the Unit’s MOU with DHW had not been updated to reflect recent legal
                   changes that allow the Unit to refer any provider under investigation of a
                   credible fraud allegation to DHW for payment suspension. In addition, the
                   Unit’s MOU with DHW 33 stipulates that the Unit may be charged for data
                   requests to the DHW Medicaid Program Integrity Unit, contrary to Federal
                   regulations. 34

                   The Unit had not updated its policies and procedures manual to
                   reflect current Unit operations
                   According to Performance Standard 3, a Unit should establish policies and
                   procedures for its operations, which should be included in a policies and
                   procedures manual. According to Unit management, the manual needs to
                   be revised to incorporate the use of the investigative checklist. In
                   addition, the manual does not incorporate adequate policies and
                   procedures for securing case files and other documentation containing
                   personally identifiable information from unauthorized access and/or
                   removal.
                   The Unit had not updated its MOU with DHW to reflect current
                   law and practice
                   According to Performance Standard 10, Units should periodically review
                   their MOUs with the State Medicaid agency to ensure that they reflect
                   current law and practice. As required by Federal regulations, 35 the Unit had
                   an MOU with DHW. However, the MOU did not reflect recent legal
                   changes that allow the Unit to refer any provider under investigation for a
                   credible fraud allegation to DHW for payment suspension. 36
                   In addition, Federal regulations require that the State Medicaid agency
                   promptly fulfill any data request from a Unit without charge, 37 and that State
                   Medicaid agency obligations to the Unit must be included in the
                   MOU between the Unit and DHW. 38 However, the MOU between the Unit
                   and DHW stipulates that “if a charge is incurred by DHW [as a result of
                   fulfilling a data request for the Unit], then such charges will be reimbursed
                   by the [Unit].” 39 In addition, the MOU stipulates that Unit requests for
                   information will be assigned equal priority to similar requests from

                   33
                      Memorandum of Understanding between the Idaho Office of Attorney General and the
                   Idaho Department of Health and Welfare, § III(A&B).
                   34
                      42 CFR § 455.21(a)(2)(i).
                   35
                      42 CFR § 1007.9(d).
                   36
                      42 CFR §§ 455.23 and 1007.9(e).
                   37
                      42 CFR § 455.21(a)(2)(i).
                   38
                      42 CFR § 1007.9(d).
                   39
                      Memorandum of Understanding between the Idaho Office of Attorney General and the
                   Idaho Department of Health and Welfare, § III(A&B).


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                       10
                   DHW staff, “provided the data does not have to be specially retrieved.” 40
                   Neither MOU stipulation complies with Federal regulations, which state
                   that Unit data requests must be fulfilled promptly, regardless of retrieval
                   difficulty, and without charge. The Unit Director indicated that the Unit has
                   never been charged by DHW for data, and that Unit data requests were
                   completed promptly by DHW.
                   Other Observation: Investigative Checklist and Case
                   Plan
                   According to Performance Standard 6, a Unit should have a continuous
                   case flow and complete its cases in a reasonable time. According to Unit
                   management and staff, the implementation of an investigative checklist in
                   February 2010 benefitted the Unit’s case flow. The investigator assigned
                   to each case uses the checklist as an investigation guide, and Unit
                   supervisors use the checklist to ensure that personnel follow appropriate
                   investigation policies and procedures and that all investigation steps are
                   completed. In addition, Unit attorneys discuss the “investigative case
                   plan” of each case with the investigator assigned to the case prior to the
                   Unit’s monthly staff meetings. Each investigative case plan is then
                   reviewed by the Unit Director. The investigative case plan contains the
                   overall investigation and prosecution strategy for each case, describes how
                   far the case has progressed, and lists which documents should be included
                   in the case files.




                   40
                        Ibid., § III(C).

Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                 11
                   CONCLUSION AND RECOMMENDATIONS
                   From FY 2009 through FY 2011, the Unit obtained 15 convictions and
                   23 civil judgments or settlements, reported recoveries of $5 million, and
                   opened 326 cases. Unit convictions and civil judgments and settlements
                   increased during the review period. Unit supervisors consistently
                   approved the opening and closing of cases, and case files consistently
                   contained documentation of periodic supervisory reviews. The Unit took
                   steps to ensure timely case completion by implementing an investigative
                   checklist and investigative case plan. Finally, the Unit exercised proper
                   fiscal control over its resources.
                   Other opportunities for improvement exist. Specifically, Unit case files
                   were not secured against potential unauthorized access or removal. The
                   Unit’s policies and procedures manual had not been updated to reflect all
                   current Unit operations. Finally, the Unit’s MOU with DHW was not
                   updated to reflect recent legal changes that allow the Unit to refer any
                   provider under investigation of a credible fraud allegation to DHW for
                   payment suspension, and the MOU allowed for the Unit to be charged by
                   DHW for data requests, contrary to Federal regulations. With the
                   exceptions of case file security and the MOU stipulation that the Unit may
                   be charged for data requests, our review of compliance issues found no
                   evidence of significant noncompliance with applicable laws, regulations,
                   or policy transmittals.
                   We recommend that the Idaho Unit:
                   Ensure That Its Case Files Are Secure
                   The Unit should store its case files and other documentation containing
                   personally identifiable information in a locked room or in locked storage
                   cabinets. Since our onsite review, the Unit has provided documentation
                   demonstrating that the case files have been properly secured.
                   Revise Its Policies and Procedures Manual To Reflect Current
                   Unit Operations
                   The Unit should revise its policies and procedures manual to include the
                   investigative checklist and develop policies and procedures for securing
                   case files and other documentation containing personally identifiable
                   information.
                   Revise Its MOU With DHW To Reflect Current Law and Practice
                   The Unit should revise its MOU with DHW to specify that the Unit may
                   refer any provider suspected of fraud for payment suspension to DHW and
                   to describe the procedures for this type of referral. In addition, the Unit
                   should revise its MOU with DHW to remove the stipulation that the Unit
                   may be charged for data requests.

Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)              12
                   UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Unit concurred with the three report recommendations.
                   Regarding our first recommendation, the Unit secured its case files by
                   moving the files into a locked room.
                   Regarding our second recommendation, the Unit revised its policies and
                   procedures to include the investigative checklist and developed policies
                   and procedures for securing case files and other documentation containing
                   personally identifiable information.
                   Regarding our third recommendation, the Unit is working with DHW to
                   complete a revised MOU by October 5, 2013.
                   The full text of the Unit’s comments is provided in Appendix E. We did
                   not make any changes to the report as a result of the Unit’s comments.




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)               13
                   APPENDIX A
                   Performance Standards for Medicaid Fraud Control Units
                   (Unit) 41
                   1. A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                        a. The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                        b. The Unit must be separate and distinct from the single State
                           Medicaid agency.
                        c. The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                        d. The Unit must submit annual reports, with appropriate
                           certifications, on a timely basis.
                        e. The Unit must submit quarterly reports on a timely basis.
                      f. The Unit must comply with the Americans with Disabilities Act,
                          the Equal Employment opportunity requirements, the Drug Free
                          workplace requirements, Federal lobbying restrictions, and other
                          such rules that are made conditions of the grant.
                   2. A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                        a. Does the Unit employ the number of staff that was included in the
                           Unit's budget as approved by the Office of Inspector General
                           (OIG)?
                        b. Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit's budget?
                        c. Does the Unit employ a reasonable size of professional staff in
                           relation to the State's total Medicaid program expenditures?
                      d. Are the Unit office locations established on a rational basis and are
                          such locations appropriately staffed?
                   3. A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:


                   41
                     59 Fed. Reg. 49080 (Sept. 26, 1994). These performance standards were in effect at
                   the time of our review and precede the performance standards published in June 2012.


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                             14
                       a. Does the Unit have policy and procedure manuals?
                       b. Is an adequate, computerized case management and tracking
                           system in place?
                   4. A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the single State agency and other
                       sources. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Does the Unit work with the single State Medicaid agency to
                          ensure adequate fraud referrals?
                       b. Does the Unit work with other agencies to encourage fraud
                          referrals?
                       c. Does the Unit generate any of its own fraud cases?
                      d. Does the Unit ensure that adequate referrals of patient abuse
                          complaints are received from all sources?
                   5. A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a. Does the Unit seek to have a mix of cases among all types of
                          providers in the State?
                       b. Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                          patient abuse cases?
                       c. Does the Unit seek to have a mix of cases that reflect the
                          proportion of Medicaid expenditures for particular provider
                          groups?
                       d. Are there any special Unit initiatives targeting specific provider
                          types that affect case mix?
                      e. Does the Unit consider civil and administrative remedies when
                          appropriate?
                   6. A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a. Is each stage of an investigation and prosecution completed in an
                          appropriate time frame?
                       b. Are supervisors approving the opening and closing of
                          investigations?
                       c. Are supervisory reviews conducted periodically and noted in the
                          case file?


Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                  15
                   7. A Unit should have a process for monitoring the outcome of cases.
                      In meeting this standard, the following performance indicators will be
                      considered:
                       a. The number, age, and type of cases in inventory.
                       b. The number of referrals to other agencies for prosecution.
                       c. The number of arrests and indictments.
                       d. The number of convictions.
                       e. The amount of overpayments identified.
                       f. The amount of fines and restitution ordered.
                       g. The amount of civil recoveries.
                      h. The numbers of administrative sanctions imposed.
                   8. A Unit will cooperate with the OIG and other federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a. Does the Unit communicate effectively with the OIG and other
                          Federal agencies in investigating or prosecuting health care fraud
                          in their State?
                       b. Does the Unit provide OIG regional management, and other
                          Federal agencies, where appropriate, with timely information
                          concerning significant actions in all cases being pursued by the
                          Unit?
                       c. Does the Unit have an effective procedure for referring cases,
                          when appropriate, to Federal agencies for investigation and other
                          action?
                      d. Does the Unit transmit to the OIG, for purposes of program
                          exclusions under section 1128 of the Social Security Act, reports
                          of convictions, and copies of Judgment and Sentence or other
                          acceptable documentation within 30 days or other reasonable time
                          period?
                   9. A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                       a. Does the Unit recommend amendments to the enforcement
                          provisions of the State's statutes when necessary and appropriate to
                          do so?




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                 16
                       b. Does the Unit provide program recommendations to single State
                          agency when appropriate?
                       c. Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                   10. A Unit should periodically review its memorandum of
                       understanding (MOU) with the single State Medicaid agency and
                       seek amendments, as necessary, to ensure it reflects current law
                       and practice. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Is the MOU more than 5 years old?
                       b. Does the MOU meet Federal legal requirements?
                       c. Does the MOU address cross-training with the fraud detection staff
                          of the State Medicaid agency?
                       d. Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                   11. The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Does the Unit director receive on a timely basis copies of all fiscal
                          and administrative reports concerning Unit expenditures from the
                          State parent agency?
                       b. Does the Unit maintain an equipment inventory?
                       c. Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                   12. A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a. Does the Unit have a training plan in place and funds available to
                          fully implement the plan?
                       b. Does the Unit have a minimum number of hours training
                          requirement for each professional discipline, and does the staff
                          comply with the requirement?
                       c. Are continuing education standards met for professional staff?
                       d. Does the training undertaken by staff aid to the mission of the
                          Unit?




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                17
                   APPENDIX B
                   Referrals of Provider Fraud and Patient Abuse and Neglect to
                   the Idaho Medicaid Fraud Control Unit by Source, Fiscal
                   Years 2009 Through 2011
                   Table B-1: Total Medicaid Fraud Control Unit Fraud and Abuse Referrals
                   and Annual Average

                                                                                                                             Annual
                    Case Type                               FY 2009          FY 2010       FY 2011       3-Year Total
                                                                                                                             Average
                    Patient Abuse and Neglect                       13              7             13                  33             11
                    Provider Fraud                                105              90             90                 285             95
                      Total                                       118              97           103                  318           106

                  Source: Office of Inspector General (OIG) analysis of Idaho Fraud Control Unit (Unit) Quarterly Statistical Reports,
                  fiscal years (FY) 2009 through 2011.


                   Table B-2: Unit Referrals, by Referral Source

                                               FY 2009                   FY 2010                FY 2011
                                                      Abuse                    Abuse                    Abuse                Percentage
                    Referral
                                          Fraud           &       Fraud            &       Fraud            &        Total        of All
                    Source
                                                     Neglect                  Neglect                  Neglect                 Referrals
                    Private
                                              36             4         36              2       36                1    115           36.2
                    Citizens*
                    Other**                   30             0         27              2       19                3     81           25.5
                    Single State
                    Medicaid                  17             1         11              0       15                0     44           13.8
                    Agency
                    Unit Hotline***           10             2         11              0       10                2     35           11.0
                    State Survey
                    and
                                               0             2           0             1         1               5      9            2.8
                    Certification
                    Agency
                    OIG                        2             0           2             1         4               0      9            2.8
                    Other State
                                               4             0           0             1         2               1      8            2.5
                    Agencies
                    Law
                                               1             2           0             0         2               0      5            1.6
                    Enforcement
                    Outside
                                               2             0           1             0         1               1      5            1.6
                    Prosecutors
                    Adult
                    Protective                 0             2           1             0         0               0      3            0.9
                    Services
                    Licensing
                                               3             0           0             0         0               0      3            0.9
                    Board
                    Providers                  0             0           1             0         0               0      1            0.3
                       Total                 105           13          90              7       90           13        318           100
                       Annual
                                                          118                       97                     103
                       Total
                       Annual
                                                                                                           106
                       Average
                   Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2009 through 2011.
                   *Includes phone calls to the Unit’s main number, emails to the Unit, and walk-in referrals.
                   ** Includes global National Association of Medicaid Fraud Control Units case referrals and Unit
                   self-referrals.
                   ***Medicaid Fraud Report forms submitted to the Unit through the Idaho Attorney General Web site.



Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                                                       18
                   APPENDIX C
                   Investigations Opened and Closed by Provider Category and
                   Case Type, Fiscal Years 2009 Through 2011
                   Table C-1: Total Annual Opened and Closed Investigations

                                                                                                                            Annual
                   Case Type                        FY 2009          FY 2010       FY 2011       3-Year Total
                                                                                                                           Average*
                   Opened                                 129             95           102               326                     109
                      Patient Abuse and
                                                           28              7            12                   47                  16
                      Neglect
                      Provider Fraud                      101             88            90               279                     93


                   Closed                                 113             87            91               291                     97
                      Patient Abuse and
                                                           26              8            11                   45                  15
                      Neglect
                      Provider Fraud                       87             79            80               246                     82

                  Source: Idaho Medicaid Fraud Control Unit (Unit) response to Office of Inspector General (OIG) data request.
                  *Averages in this table are rounded.


                   Table C-2: Total Investigations, by Case Type

                                                              FY 2009                    FY 2010                     FY 2011
                    Case Type
                                                         Opened        Closed       Opened         Closed         Opened     Closed
                    Patient Abuse and Neglect                   28         26                7           8            12          11
                    Provider Fraud                           101           87            88            79             90          80
                       Total                                 129          113            95            87            102          91

                   Source: Unit response to OIG data request.



                   Table C-3: Patient Abuse and Neglect Investigations


                    Provider Category                         FY 2009                    FY 2010                     FY 2011

                                                         Opened        Closed       Opened         Closed         Opened     Closed
                    Home Health Aides                           2              0             1           3             1           1

                    Nondirect Care                              6              6             0           0             0           0
                    Nurses/Doctors’
                                                                5              4             0           1             3           2
                    Assistants/Nurse Aides
                    Nursing Facilities                          2              2             2           0             3           3
                    Other Long-Term Care
                                                                0              1             0           0             0           0
                    Facilities
                    Other                                       13         13                4           4             5           5

                       Total                                    28         26                7           8            12          11

                   Source: Unit response to OIG data request.




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                                                     19
                   Table C-4: Provider Fraud Investigations

                    Provider Category                       FY 2009              FY 2010           FY 2011
                    Facilities                         Opened        Closed   Opened   Closed   Opened   Closed
                    Hospitals                                   0        2         4       3         2        3
                    Nursing Facilities                          2        1         2       4         4        4
                    Other Long-Term Care
                                                                2        4         3       2         3        3
                    Facilities
                    Substance Abuse Facilities                  0        1         0       0         0        0
                    Other                                       4        5         6       8         4        2
                    Practitioners                      Opened        Closed   Opened   Closed   Opened   Closed
                    Chiropractors                               3        2         1       0         0        1
                    Counselors/ Psychologists                   18      19        11       11       11       12
                    Dentists                                    3        1         6       5         2        3
                    Doctors of Medicine or
                                                                5        6         6       7         6        5
                    Osteopathy
                    Optometrists/ Opticians                     1        1         0       0         0        0

                    Other                                       1        1         1       1         0        0
                    Medical Support                    Opened        Closed   Opened   Closed   Opened   Closed
                    Durable Medical
                                                                6        5         1       3         6        4
                    Equipment Suppliers
                    Home Health Care
                                                                4        5         2       1         3        3
                    Agencies
                    Home Health Care Aides                      14       9         4       8        24       11
                    Laboratories                                0        0         1       0         1        0
                    Nurses/Doctors’
                                                                2        5         7       5         0        4
                    Assistants/Nurse Aides
                    Pharmaceutical
                                                                17       2        12       9        10        8
                    Manufacturers

                    Pharmacies                                  6        4         1       2         4        2

                    Radiologists                                0        0         1       1         0        0
                    Transportation Services                     1        3         5       3         2        3
                    Other                                       5        5        12       5         6       10
                    Program Related                    Opened        Closed   Opened   Closed   Opened   Closed
                    Billing Companies                           2        2         0       0         1        1
                    Managed Care                                3        2         0       0         1        0
                    Medicaid Program
                                                                1        1         1       1         0        0
                    Administration
                    Other                                       1        1         1       0         0        1
                       Total                                101         87        88       79       90       80

                   Source: Unit response to OIG data request.




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                                20
                   APPENDIX D
                   Case File Review Population, Sample Size Counts, and
                   Confidence Interval Estimates
                   Table D-1 shows population and sample counts and percentages by case
                   type. Note that both samples have percentages of case types similar to the
                   general population, though sample counts for some case types are very
                   small. Because of these small sample sizes, we cannot reliably generalize
                   what we found in our sample review to each case type in the population,
                   and only our overall estimates project to the population of all case files.
                   We estimated the 4 population values for all 329 case files from the results
                   of our review of the case files selected in our simple random samples.
                   Table D-2 includes the estimate descriptions, sample sizes, point
                   estimates, and 95-percent confidence intervals for these four estimates.

                   Table D-1: Population and Sample Size Counts for Case Types
                                                         Population Count                Sample Count*              Sample Count*
                    Case Type
                                                           and (%) n=329                 and (%) n=100               and (%) n=50

                    Closed                                        254 (77%)                      82 (82%)                   41 (82%)

                    Open                                            75 (23%)                     18 (18%)                    9 (18%)




                    Civil                                           55 (17%)                     16 (16%)                    9 (18%)

                    Criminal                                      274 (83%)                      84 (84%)                   41 (82%)




                    Global                                          53 (16%)                     17 (17%)                   10 (20%)


                    Patient Abuse/Neglect                           48 (15%)                     15 (15%)                    6 (12%)

                    Provider Fraud                                228 (69%)                      68 (68%)                   34 (68%)

                   Source: The Idaho Medicaid Fraud Control Unit provided a list of all case files open during fiscal years 2009 through
                   2011.
                   *The Office of Inspector General generated this random sample.




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                                                       21
                   Table D-2: Confidence Intervals for Key Case File Review Data
                                                                            Point   95-Percent Confidence
                    Estimate Description           Sample Size
                                                                         Estimate                 Interval
                    Case Files With
                    Documented Supervisory                   100            98.0%              93.6–99.4%
                    Approval for Opening
                    Case Files With
                    Documented Supervisory                    82            97.6%              92.1–99.2%
                    Approval for Closing
                    Case Files With
                    Documentation Indicating
                                                             100            91.0%              84.5–95.1%
                    at Least One Supervisory
                    Review
                    Case Files With
                    Documentation Indicating
                                                             100            89.0%              82.4–93.6%
                    Periodic Supervisory
                    Review




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                           22
                   APPENDIX E
                   Unit Comments




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)   23
                                                                                                                           li
                                                                                                                           I!
               and other documentation containing personally identifiable information.   This has been
               accomplished since receiving the draft report.
                      '!'he third recommendation is tbr the MFCU to revise its Memorandum of Understanding
               with the Idaho Department of Health and Welfare (DHW) regarding procedures involving
               referrals of providers suspected of fraud for payment suspicion to DHW and the removal of the
               stipulation that the Unit may be charged for data requests. The MFCU will wo rk with the DHW
               to accomplish this by Octobct' 5, 2013.
                      We look forward to working togethe.r with you and others in the U.S. Department of
               Heal th and Human Services in the future in our role of policing the Idaho Medicaid Program as
               envisioned by the ldal1o Legislature and Congress.


               Sincerely
                                                                                                                      ;i


                   /S/
               Kendal McDevitt
               Deputy Idaho Attorney General
               Director, Medicaid Fraud Control Unit                                                                  ;
                                                                                                                      l


                                                                                                                      .

                                                                                                                      ;
                                                                                                                      I




                                                                                                    Page 2 of2




         -




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)                                    24
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Timothy S. Brady, Regional
                   Inspector General for Evaluation and Inspections in the San Francisco
                   regional office, and Michael Henry, Deputy Regional Inspector General.
                   Matthew DeFraga served as the lead analyst for this study. Central office
                   staff who provided support include Susan Burbach, Kevin Farber, and
                   Debra Roush. Office of Investigations staff who provided support include
                   Jason Weinstock.




Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00220)             25
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
